                           U.S. DEPARTMENT OF EDUCATION

                                OFFICE OF INSPECTOR GENERAL 

                                     75 Park Place, 12th Floor 

                                    New York, New York 10007 


                                             December 14, 2004

                                                                               Control Number
                                                                               ED-OIG/A02-E0009

Honorable César A. Rey-Hernández
Secretary of Education
Puerto Rico Department of Education
Calle Teniente González, Esq. Calle Calaf – 12th Floor
Urb. Tres Monjitas
San Juan, Puerto Rico 00919

Dear Secretary Rey-Hernández:

This is our Final Audit Report entitled Puerto Rico Department of Education’s (PRDE) Special
Education Program Services. The objectives of our audit were to determine if (1) special
education students in Puerto Rico received evaluation, therapy, and transportation services that
PRDE contracted and paid for with U.S. Department of Education (ED) funds; and (2) PRDE
followed Federal and State laws and regulations in procuring special education program services.
We found that evaluation, therapy, and some transportation services that PRDE contracted and
paid for with ED funds were provided to special education students in Puerto Rico. However, in
the Bayamón region, PRDE approved payments for transportation services without verifying
whether these services were provided to special education students. The transportation contracts
awarded to that region totaled $5,935,988 for the period July 1, 2002, through June 30, 2003. In
addition, we found that PRDE followed Federal and State laws and regulations in procuring
special education program services.

We provided a draft of this report to PRDE. In its response, dated November 8, 2004, PRDE
disagreed with the conclusion of the audit. PRDE stated that the identified costs were fully
supported because the services billed were provided only to special education students. PRDE
also stated that its existing transportation policy addresses the issues of the student attendance
lists. PRDE reported that it will monitor the Bayamón region over the next several cycles and
will also provide additional training to the Island-wide and regional monitors. PRDE’s response
did not cause us to change our finding and recommendations. We have summarized PRDE’s
comments after the finding and have included PRDE’s entire response as an Attachment.

                                              BACKGROUND

The Office of Special Education Programs (OSEP), within the Office of Special Education and
Rehabilitative Services (OSERS), administers the Individuals with Disabilities Education Act
(IDEA). IDEA authorizes formula grants to states, and discretionary grants to institutions of
higher education and other nonprofit organizations to support research, demonstrations, technical




Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Audit of PRDE’s Special Education Program Services                                               Final Report
for the period July 1, 2002 to June 30, 2003                                               ED-OIG/A02-E0009

assistance and dissemination, technology and personnel development, parent-training, and
information centers. These programs are intended to ensure that the rights of infants, toddlers,
children, and youth with disabilities and their parents are protected.

PRDE serves approximately 70,000 special education students in Puerto Rico. OIG has received
numerous complaints from parents of children in need of special education who claim that PRDE
did not provide services, such as transportation and therapy. During work on the last OIG audit
of the Special Education Program,1 PRDE officials stated that some schools did not submit the
attendance list for transportation timely. As a result, PRDE paid transportation service providers
the total amount stipulated in their contracts without knowing whether the students received the
transportation services. In addition, parents have complained that PRDE lacked trained
personnel and provided a poor quality of education in inadequate classroom facilities.

On May 29, 2002, ED designated PRDE as a “high-risk” grantee under 34 C.F.R. § 80.12,
making the agency subject to special conditions in all of the Federal education programs that it
administers. As a result, in both August 2002 and September 2003, ED placed special conditions
on PRDE’s grants because of problems with PRDE’s fiscal and program accountability.

                                                  AUDIT RESULTS

Finding: 	 PRDE processed payments for transportation contracts totaling $5.9 million
           without verifying whether the services were provided to special education students.

During the period July 1, 2002, through June 30, 2003, PRDE processed payments for
transportation services without verifying whether the services were provided to special education
students. Specifically, PRDE made unsupported payments pursuant to transportation contracts in
the Bayamón region totaling $5,935,988. PRDE did not implement adequate controls to request
the schools’ attendance lists of special education students to verify the accuracy of transportation
invoices prior to making payments. PRDE also did not implement adequate controls to review
the attendance lists and make the appropriate payment adjustments based on student absences.
As a result, PRDE cannot assure ED that funds were properly expended.

Pursuant to 34 C.F.R. § 76.702,2 “A State and a subgrantee shall use fiscal control and fund
accounting procedures that insure proper disbursement of and accounting for Federal funds.”

According to 34 C.F.R. § 80.20(a), “ . . . Fiscal control and accounting procedures of the State,
as well as its subgrantees and cost-type contractors, must be sufficient to: . . . (2) Permit the
tracing of funds to a level of expenditures adequate to establish that such funds have not been
used in violation of the restrictions and prohibitions of applicable statutes.”


1
 Puerto Rico Department of Education’s Special Education Expenditures for the period, July 1, 2002 to December
31, 2002 (ED/OIG A02-D0020) identified that PRDE could not provide supporting documentation for transportation
services.
2
    Unless otherwise specified, all regulatory citations are to the July 1, 2002 volume.



                                                             2
Audit of PRDE’s Special Education Program Services                                 Final Report
for the period July 1, 2002 to June 30, 2003                                 ED-OIG/A02-E0009

The regulations at 34 C.F.R. § 80.20(b)(3) provide that “[e]ffective control and accountability
must be maintained” for all federal grant funds.

The regulations at 34 C.F.R. § 80.20(b)(6) state that, “Accounting records must be supported by
such source documentation as cancelled checks, paid bills, payrolls, time and attendance records,
contract and subgrant award documents, etc.”

Pursuant to 34 C.F.R. § 80.36(a), “When procuring property and services under a grant, a State
will follow the same policies and procedures it uses for procurements from its non-Federal
funds.” Puerto Rico’s procurement regulations governing PRDE, Reglamento de Compras,
Ventas y Subastas de Bienes, Obras y Servicios No Personales del Departamento de Educación
(PRDE Procurement Regulations), § 68.1, require a PRDE official to certify that services have
been received before processing a request for payment.

PRDE did not have an effective system of internal control in place to insure that PRDE
determined required payment adjustments and paid only for transportation services actually
received under the transportation contracts. Officials from the Bayamón region explained that
schools have to submit absence reports in order for them to make the appropriate payment
adjustments. The service provider receives only 50 percent of the amount stipulated in the
contract when he/she arrives to pick up the student and the student is absent. If the service
provider fails to pick up the student, or if he/she knows in advance that the student will be
absent, no payment is made for that day. Even though there were several schools that did submit
the absence reports, the payment adjustments were never made. We visited four schools that did
not submit the absence report, and the school officials stated that they did not receive instructions
from the region to submit an absence report. In contrast to the Bayamón region, Ponce, the other
region that received Federal funds for transportation services, did verify the accuracy of invoices
prior to approving payments.

Recommendations

We recommend that the Assistant Secretary for OSERS require PRDE to:

1.1 	   Obtain supporting school attendance lists from the Bayamón region, or return to ED the
        $5,935,988 PRDE paid without verifying whether the transportation services were
        provided to special education students. If supporting documentation is obtained,
        calculate the payment adjustments based on the absence reports, and return any excess
        payments to ED;

1.2 	   Establish controls to ensure schools submit special education student attendance lists for
        transportation services to verify the accuracy of invoices prior to approving payment; and

1.3 	   Establish controls to calculate the appropriate payment adjustments based on student
        absences prior to approving payment for special education transportation services.




                                                 3

Audit of PRDE’s Special Education Program Services                                 Final Report
for the period July 1, 2002 to June 30, 2003                                 ED-OIG/A02-E0009

PRDE’s response

In its response, PRDE disagreed with the conclusion of the audit that it failed to implement
sufficient controls to determine that services were provided to eligible students with disabilities.
PRDE explained that it had procedures to: (1) award transportation contracts for special
education students; (2) make contractual payments; and (3) make appropriate adjustments to the
payments based on absence reports. PRDE stated that OIG’s conclusion that all contractual
payments should be returned is unsupported because the students were all eligible. PRDE
requested the Bayamón region schools to provide their absence lists, but approximately 40
schools had not yet responded to this request. Central Office personnel matched the student
attendance lists with the vendor contracts and route lists to determine the number of total
absences and the related costs. A total of $89,257 of adjustments was identified. PRDE planned
to continue to gather information from the missing schools and planned to make any additional
adjustments. These funds would be credited to the open 2003 Federal funds, as the obligation
period for these funds has not yet lapsed.

In response to the recommendations, PRDE believes that the identified costs were fully
supported because the services billed were only provided to special education students.
Additionally, PRDE’s existing transportation policy addresses the issues of student attendance
lists. PRDE stated it will monitor the Bayamón region in particular for this issue over the next
several cycles and will also provide additional training to the Island-wide and regional monitors.
Furthermore, PRDE created a pilot program designed to streamline delivery of services to
students with disabilities. The Caguas region instituted new procedures to verify transportation
expenses. This pilot program will be instituted Island-wide as the pilot programs are phased in.
PRDE planned to open five additional centers by December of 2004, and centers in the
remaining regions in the following years.

OIG’s reply

We reviewed PRDE’s response and its numerous exhibits, but did not change our finding or
recommendations. Although PRDE provided a schedule with the adjustments it planned to
make, it did not include supporting documentation for those adjustments. As a result, we cannot
determine whether these adjustments are sufficient to address the finding. PRDE will have the
opportunity to provide the supporting documentation to the audit resolution team. PRDE’s
response to recommendation 1.1 did not address unsupported costs for $612,429. This amount
pertained to the previous Special Education report A02-D0020. Furthermore, contrary to what
PRDE stated in its response to recommendation 1.1, we did not conclude that $5.9 million in
transportation contracts were unsupported based on student eligibility. We determined that the
payments were unsupported because PRDE processed these payments without verifying the
schools’ attendance lists and did not make appropriate payment adjustments based on student
absences. PRDE addressed recommendations 1.1 and 1.2, but did not formally address
recommendation 1.3. PRDE’s corrective action plan should help ensure that Special Education
funds are used to pay only for services that were actually provided.




                                                 4

Audit of PRDE’s Special Education Program Services                               Final Report
for the period July 1, 2002 to June 30, 2003                               ED-OIG/A02-E0009

                       OBJECTIVES, SCOPE, AND METHODOLOGY 


The objectives of our audit were to determine if (1) special education students in Puerto Rico
received evaluation, therapy, and transportation services that PRDE contracted and paid for with
ED funds; and (2) PRDE followed Federal and State laws and regulations in procuring special
education program services.

To accomplish the audit objectives, we interviewed officials from PRDE’s Special Education
Division, PRDE’s school regions, and the contractors providing evaluation and therapy services.
In addition, we reviewed student files to verify the supporting documentation for the services
provided. We also reviewed the procurement procedures for evaluation, therapy, and
transportation services. We performed our fieldwork at PRDE’s offices in Hato Rey, Puerto
Rico from February 18, 2004, through August 12, 2004, the date of our exit conference.

To verify the supporting documentation for the evaluation and therapy services provided, we
made site visits to the contractors’ offices from June 3, 2004, through June 30, 2004. Included in
this review were the following contractors: Instituto de Enseñanza Individualizado, Centro
Comunicológico de Arecibo, Pediatric Speech & Language Service, Inc., Colegio San Gabriel,
Clínica de Terapias Pediátricas, Centro de Patología del Habla y Audición, Integra Therapy
Centers, and MCG and the Able Child. To verify the supporting documentation for
transportation services, we made site visits to the Ponce and Bayamón school regions on April
28, 2004, and May 6, 2004, respectively.

To achieve our audit objectives, we selected both statistical and judgmental samples from the list
provided by PRDE of all contracts awarded with ED funds for evaluation, therapy, and
transportation services for the award period July 1, 2002, through June 30, 2003. We stratified
our samples by dollar volume. The universe of evaluation and therapy services included 61
contracts that totaled $24,688,002. We statistically selected the contracts for evaluation and
therapy services. We judgmentally selected the months to be tested for these contracts. For
transportation services, only two of Puerto Rico’s ten school regions received Federal funds.
The universe of transportation services included 107 contracts totaling $7,683,649. We
statistically selected the transportation services contracts.

The sample of 8 evaluation and therapy contracts was stratified by dollar volume, omitting
transactions under $50,000 and using the following strata:

$50,000 - $2,999,999          5 contracts
$3,000,000 plus               3 contracts

The sample of 20 transportation contracts was stratified by dollar volume, using the following
strata:

$30,000 - $49,999             7 contracts
$50,000 - $199,999            6 contracts
$200,000 plus                 7 contracts




                                                5

Audit of PRDE’s Special Education Program Services                                Final Report
for the period July 1, 2002 to June 30, 2003                                ED-OIG/A02-E0009

Our sample for evaluation and therapy services accounted for $13,234,700 (54 percent) of the
total contracts. For transportation services, our sample totaled $3,029,685 (39 percent) of the
total contracts.

We did not rely on any computer-processed data for any conclusions reached during this audit.
For transportation services contracts, PRDE provided a list on a hard copy document. The list of
evaluation and therapy contracts was provided in an electronic format; however, it was not
generated from a computer database. Our audit was performed in accordance with generally
accepted government auditing standards appropriate to the scope of the review described above.

                         STATEMENT ON INTERNAL CONTROL

We did not review the internal control structure of PRDE because we previously reviewed the
internal controls, policies, procedures, and practices applicable to PRDE’s administration of
contracts in recent ED/OIG audits (A01-90006, A01-90007, A01-A0004, A02-B0012, A02­
C0017, A02-D0014, and A02-D0020). PRDE has yet to implement our major recommendations,
such as properly reviewing supporting documentation prior to payment of invoices. Based on
previous knowledge, we determined the level of control risk, that is the risk that material errors,
or irregularities, or illegal actions may occur, to be high.

                               ADMINISTRATIVE MATTERS

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

               Troy R. Justesen
               Acting Deputy Assistant Secretary
               Office of Special Education and Rehabilitative Services
               U.S. Department of Education 

               400 Maryland Ave., SW 

               Washington, D.C. 20202 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials. Please review this draft report and provide us with your written comments
on the finding and recommendations within 30 days of the date of this letter.




                                                6

Audit of PRDE’s Special Education Program Services                               Final Report
for the period July 1, 2002 to June 30, 2003                               ED-OIG/A02-E0009

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                     Sincerely,

                                             /s/

                                     Daniel P. Schultz
                                     Regional Inspector General
                                       for Audit




                                                   7

Audit of PRDE’s Special Education Program Services                                                  Final Report
for the period July 1, 2002 to June 30, 2003                                                  ED-OIG/A02-E0009

                                                   Attachment




                           ,L . ~:::J1 Estado Libre Asociado de Puerto ~~co
                      (w -        s       Departamento de EducaclOn


              November 8, 2004


              Daniel P, Schultz
              Regional Inspector General for Audit
              US Departmenl of Education
              Office of Inspector General
              75 Park Place, Room 1207
              New York, NY 10007

              Dear Mr. Schultz,

              The Puerto Rico Department of Education (PRDE) appreciatcs the opportunity to submit
              comments regarding Dran Audit Report Control Number ED-OIG/A02-E0009, Enclosed
              please find our comments.

              If you have any questions, please feel free to contact us at (787) 759-2000 or 759-8910.


              Sincerely,


                      lsi                                                        lsi
              Ileana I. Fas- Pacheco                                      Sonia Rosario Rodriguez
              Director                                                    Assistant Secretary
              Federal A ffai rs                                           Special Education
Audit of PRDE’s Special Education Program Services                                                 Final Report
for the period July 1, 2002 to June 30, 2003                                                 ED-OIG/A02-E0009

                                                    Attachment




                                       OIG DRAFT AUDIT REPORT
                             PRDE'S SPECIAL EDUCATION PROGRAM SERVICES
                                  AUDIT CONTROL NO. ED-OiG/A02-E0009

                     The PRDE appreciates the opportunity to respond to the Office of Inspector
              General (OIG) findings set out in its October 6, 2004, draft audit report. The draft audit
              report was developed to detcnninc if (I) special education students in Puerto Rico
              received evaluation, therapy, and transportation services that PRDE contracted and paid
              for with ED funds; and (2) PRDE followed Federal and State laws and rcgulations in
              procuring special education program services,

                      Ole; Auditors interviewed officials from the Special Education Division, school
              regions and contractors providing evaluation and therapy services, OIG officials also
              interviewed contractors and made site visits to the Ponce and Bayamon school districts to
              review documentation for transportation services,

                      The PRDE has worked to provide a comprehensive response within the OIG's
              timeframe, lIowever, PRDE is continuing to review and develop data demonstrating
              alternate documentation to support the expenditures identified by the OIG findings,
              PRDE has identified those issues [or which PRDE intcnds to submit additional
              documentation below (see attachments).

              Finding No. 1 - PRDE processed payments for transportation contracts totaling
              $5.9 million without verifving whether the services were provided to special
              education students.

                      Finding I states that $5,935,988,00 of Special Education grant money was used to
              pay for transportation services without verifying the services were provided to special
              education students, The audit alleges that the payments were unsupported because PRDE
              failed to implement existing monitoring policies to make appropriate payment
              adjustments of transportation expenditures against attendance records for students with
              disahilities.

                  During its audit, OIG reviewed a sample of 20 transportation contracts, totaling 39%
              of the total contracts in only two regions, the Bayamon and Ponce regions, The audit
              concluded that during the period July 1, 2002 through June 30, 2003, PRDE processed
              payments for transportation services without verifying whether services were provided to
              special education students because the Bayamon Region did not verify the schools'
              attendance lists to detennine the accuracy of individual transportation payments,

                  PRDE disagrees with the conclusion of thc audit that PRDE failed to implement
              sufficient controls to detennine that services were provided to eligible students with
              disabilities, While the attendance verification procedures may not have been unifonnly
              applied in Bayamon, in actuality, the expenditures were paid to vendors that provide
              transportation services only to students with disabilities to transport them to and from
              school and to the students' related service providers,


              Puerto Rico Department of Education                                             page 1 of 5
             ~ovember   8, 2004
Audit of PRDE’s Special Education Program Services                                                    Final Report
for the period July 1, 2002 to June 30, 2003                                                    ED-OIG/A02-E0009

                                                     Attachment




                  These vendors, listed in Exhibit I, enter into contracts for transportation exclusively
              of special education students.       These contracts are distinct from those used for
              transportation or regular education students. Contracts are negotiated at the regional
              leveL In order to enter into a transportation contract, the Region must design a route for
              the eligible students with disabilities. Each school submits a document to the region
              entitled, "Solicitud de Servieios de Transportacion" that is created during the student's
              IEP meeting. The form must include the student's personal infonnation, school, the
              transportation services called for on the student's lEP. The fonn is signed by the IEP
              team leader and the parent during the rEP meeting. Sec Exhibit 2, 3.

                  After receiving the requests for transportation for individual students with disabilities
              the Region generates the Route list and enters into a contract with the appropriate vendor.
              Each contract is denoted on its face as a Special Education Contract to be paid for with
              special education funds. The route list of students assigned to the vendor is attached to
              the contract. In this way, only eligible students with disabilities receive the special
              education transportation services. See Exhibit 4.

                  To obtain payrncnt as a vendor, each vendor is required to subrnit a reinlbursement
              request to the District Office designated for transportation. This request identifies the
              vendor's name, social security or tax identification number and date the transportation
              expenditure was incurred. After receipt of the payment request or invoice, an official
              then completes a certification document to authenticate the expenditures as valid
              expenditure for a child with a disability.

                  To verify whether students with disabilities receive the services for which the vendors
              are contracted, PRDE's policy requires school districts to complete a form that tracks the
              absences of students with disabilities. See Exhibit 5, p. 3,20. This policy is circulated to
              schools and regions on an annual basis. Thc audit itself not cd that sevcral schools
              submitted the abscnce reports, specifically in the Ponce region.

                  The conclusion that all contractual payments should be returned is unsupported,
              because the students are all eligible. PRDE however, submits the following documents
              (see attachments) to support expenditures made in the Bayamon Region. We intend to
              document the school attendance for students with disabilities during the audit period in
              order to make appropriate adjustments.

                 To gather the necessary supporting documentation for the attendance adjustments,
              PRDE utilized the following procedure. First, the Regional Director for Special
              Education in the Bayamon Region sent correspondence to the Superintendents, auxiliary
              Superintendents, Special Education supervisors, and school directors, that the Central
              Office would collect the attendance data for special education students for the 2002-2003
              school year. See Exhibit 6.




              Puerto Rico Department of education                                                page 2 01'5
              November R. 2004
Audit of PRDE’s Special Education Program Services                                                   Final Report
for the period July 1, 2002 to June 30, 2003                                                   ED-OIG/A02-E0009

                                                    Attachment




                  Central 0 nice personnel then audi ted the indi vidual schools in the region and created
              an absence list for each individual school. Each f01111 was signed and certified as correct
              by the School Directors. See Exhibit 7. A sample of these lists is included in Exhibit 7.
              All original documentation is available for review at the PRDE Central Office.
              Approximately 40 schools have not yet responded to the September 29 th request. A list
              of these is included in Exhibit 8. However, Central Personnel will continue to collect the
              necessary inf011l1ation from the schools.

                  Central Office personnel then matched the student attendancc lists with the vendor
              contracts and route lists to dete11l1ine the number of total absences and the related costs.
              A copy of the spreadsheet with a total of $89,257.36 of adjustments is attached. See
              Exhibit 9. This spreadsheet indicates several vendors for which evidence regarding
              absences has not been completely collected. PRDE will continue to gather this
              info11lmtion from the missing schools and districts. PRDE will make the adjustments
              contained in the spreadsheet, and any additional adjustments identified through the data
              collection process. These funds will be credited to the open 2003 Federal funds, as the
              obligation period for these funds has not yet lapsed.

              RECOMMENDATIONS:

              1.1. -   Obtain supporting school attendance lists from the Bayamon region or retum to
                       ED, the $5,935,988 PRDE paid without verifying whether the transportation
                       services were provided to special education students.          If supporting
                       documentation is obtained, calculate the payment adjustments based on the
                       absence reports, and return any excess payments to ED. Return to ED
                       $612,429 in unsupported costs or provide supporting documentation of costs
                       expended.

              PRDE believes that the identified costs are fully supported because the services billed
              were only provided to special education students. In deference to the OlG's request,
              PRDE has obtained school attendance lists for the majority of vendors. PRDE will
              submit the additional documentation to the OIG.

              1.2 - Establish controls to enSure school submit special education student attendance
                    lists for transportation services to verify the accuracy of invoices prior to
                    approving payments.

              PRDE's existing transportation policy addresses the issues of the sludent attendance lists.
              In addition, PRDE circulated a reminder letter to schools, districts and regions on
              October 7, 2004, regarding the policy. PRDE will monitor the Bayamon region in
              particular for this issue over the next several cycles, and these issues will be a
              consideration in determining Bayamon's compliance status. PRDE also monitors
              transportation expenditures as part of its ongoing continuous improvement policy. PRDE
              shall also provide additional training to the Island-wide and regional monitors regarding
              compliance with this issues and appropriate procedures for verification of payment of
              invoices.


              Puerto Rico Department of Education                                               page 3 0[5
              November 8, 2004
Audit of PRDE’s Special Education Program Services                                                     Final Report
for the period July 1, 2002 to June 30, 2003                                                     ED-OIG/A02-E0009

                                                    Attachment




              In addition, PRDE created a pilot program designed to streamline delivery of services to
              students with disabilities and consolidate much of the central administrative functions at
              the local level. As part of the pilot program, the Caguas Region has designated an
              official responsible for provision of appropriate transportation to students with disabilities
              and instituted new procedures to verify transportation expenses, These procedures
              include:

                     Verification of Attendance of students with disabilities
                     Periodic Targeted monitoring of vendor's routes
                     Certification by school directors of eaeh date of attendance

              This pilot program, including the revised procedures for processing transportation
              expenses, will be instituted Island-wide as the pilot programs are phased in, PRDE plans
              to open 5 additional centers by December of 2004, and open centers in the remaining
              regions in the following years. PRDE will also review and, if necessary, revise the new
              procedures regarding processing of transponation expenses for private vendors,

              Finally, pursuant to the Compliance Agreement, PRDE is instituting a new grants
              management system that will further enhance the system of internal controls for all
              federal expenditures,




             Puerto Rico Department of Education                                                 page 4 of 5
             November 8, 2004
Audit of PRDE’s Special Education Program Services                                            Final Report
for the period July 1, 2002 to June 30, 2003                                            ED-OIG/A02-E0009

                                                   Attachment




             List of Exhibits

                 I.   Porteadores Program a Educaci6n Especial
                 2.   Solicitud de Servicios de Transportaci6n
                 3.   Declaracion Jurada, Maria M. Figueroa Centeno
                 4.   Enrnienda Al Contrato de Tres Afios Sobre Servicio Para La Transportacion de
                      Escolares
                 5.   Carta, dated 712112004
                 6.   Letter dated <)12912004
                 7.   Informc de Ausencias de Estudiantes Con Impedimentos Que Reciben
                      Transportacion Escolar Por P0!1eador
                 8.   Lista De Escuelas No Enlregaron lnfomle de Ausencias
                 9.   Infomle de Ausencia, Aiio Fiscal 2002-2003




             Puerto Rico Department of Education                                         page 5 of 5
             November 8. 2004
